No. 21In the

Supreme Court of the United States
Drasc, Inc., et al.,
Petitioners,
v.
Navistar International Corporation, et al.,
Respondents.
On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Seventh Circuit

PETITION FOR A WRIT OF CERTIORARI
Owen J. Rarric
Counsel of Record
Matthew P. Mullen
Krugliak, Wilkins, Griffiths
& Dougherty Co., L.P.A.
4775 Munson Street, N.W.
P.O. Box 36963
Canton, Ohio 44735
(330) 497-0700
orarric@kwgd.com
Attorneys for Petitioners
Drasc, Inc. and S&C Trucks
of Winklepleck, Ltd.
307236

A
(800) 274-3321 • (800) 359-6859

i
QUESTIONS PRESENTED
Federal Rule of Civil Procedure 23(c)(2)(B) mandates
that unnamed class members be given the right to “opt out”
of a class settlement after a court’s preliminary approval.
To adequately protect the unnamed class members’ due
process rights, courts including the Second and Tenth
Circuits follow the Reasonable Indication Standard for
determining whether a class member has sufficiently
expressed a desire to opt out. Here, the Seventh Circuit
has rejected the Reasonable Indication Standard and
replaced it with a standard that demands mechanically
rigid compliance with the district court’s prescribed optout procedure. The questions presented are:
1.

Does an unnamed class member who provides
reasonable indication of its intent to be excluded
from the class settlement sufficiently opt out (as
two circuits have held), or must the unnamed
class member rigidly adhere to the district
court’s opt-out procedures (as one circuit has
held)?

2.

Must a district court analyze an unnamed class
member’s claim of excusable neglect for failing
to follow the class settlement opt-out procedure
under this Court’s four-part test in Pioneer Inv.
Servs. Co. v. Brunswick Assocs. Ltd. P’ship, 507
U.S. 380, (1993)?

ii
PARTIES TO THE PROCEEDING
Petitioners were appellants in the court of appeals.
Respondents, Navistar International Corporation and
Navistar, Inc. (“Respondents”), are corporations organized
under the laws of Delaware, with their principal place of
business in Illinois. Respondents are named defendants in
this class action and were appellees in the court of appeals.
There are various named class plaintiffs, who are
citizens of Alabama, Arkansas, California, Connecticut,
Florida, Idaho, Illinois, Indiana, Kentucky, Massachusetts,
New Jersey, North Carolina, Oregon, Pennsylvania,
South Carolina, South Dakota, Tennessee, Texas, and
Wisconsin and include Storey Trucking Company, Inc.,
Lakeside Leasing, Inc., Southern California Moving, Inc.,
C&T Transport, Antioch Building Materials, Co., Sloan
Transport, Inc., Trans Ex Enterprise, Killer B Trucking
LLC, Lance R. Edwards, Peninsular Transfer Inc., Vera
Transport LLC, William Wardlaw, Windy Hill Inc.,
David A. Lord dba Lord AG Transportation, Carmichael
Leasing Co. dba Carmichael NationaLease, Robert
Greiser, Randy Quick, Binder Trucking, Inc., Joandnas
Operations, Inc., Fike Logistics, Inc., Robert Constantine,
Kenneth Reul, Wright Transportation, Inc., A-Rapid
Logistics, Alka Trucking, Inc., Ferraro Foods, Inc., Cape
Fear Carriers & Transport, Inc., Cape Fear Commercial
Lawn Service & Landscaping, Jenkins Unlimited, Inc.,
Phifer Trucking, Inc., Richard Bellerud Trucking, Inc.,
OMCO Enterprises, LLC, ALJEN Enterprises, LLC,
A.T.T. Trucking, LLC, H.J. O’Malley Trucking, LLC,
Traficanti Trucking, LLC, B&T Express, Inc., Ronald L.
Anderson, Victor Caballero, Gettysburg Auto Transport,
LLC, Randy K linger, The Cross Express, Reber

iii
Trucking, Inc., Leonard Butler, Steven A. Hamilton,
Airborne Investments LLC, Denis Gray Trucking Inc.,
Par 4 Transport, LLP, Emerald Trucking LLC, G&G
Specialized Carriers LLC, and Michael Jackson, Sr. The
named class plaintiffs, referred to in the court of appeals
as the Class Representatives, were appellees in the court
of appeals. Class Representatives presented arguments
in the court of appeals on a singular issue of whether the
class notice at issue adequately described the opt-out
procedure to the unnamed class members.

iv
CORPORATE DISCLOSURE STATEMENT
Under Rule 29.6 of this Court’s Rules, Petitioners,
Drasc, Inc. and S&C Trucks of Winklepleck, Ltd.
(“Petitioners”), state that there are no parent corporations
or any publicly held corporation that owns 10% or more
of their stock.

v
STATEMENT OF RELATED PROCEEDINGS
• Drasc, Inc., et al. v. Navistar, Inc., et al., No. 2014
CV 05 0292, Court of Common Pleas, Tuscarawas County,
Ohio. Judgment entered July 27, 2017 (voluntary dismissal
without prejudice).
• Drasc, Inc., et al. v. Navistar, Inc., et al., No. 2018
CV 07 0635, Court of Common Pleas, Tuscarawas County,
Ohio (pending).
• In re Navistar MaxxForce Engines Marketing,
Sales Practices and Products Liability Litigation,
No. 1:14-cv-10318, U.S. District Court for the Northern
District of Illinois. Judgment entered June 12, 2019.
• In re Navistar MaxxForce Engines Marketing,
Sales Practices and Products Liability Litigation,
No. 1:14-cv-10318, U.S. District Court for the Northern
District of Illinois. Judgment entered Jan. 21, 2020.
• In re Navistar MaxxForce Engines Marketing,
Sales Practices and Products Liability Litigation,
No. 1:14-cv-10318, U.S. District Court for the Northern
District of Illinois. Judgment entered Apr. 16, 2020.
• In re Navistar MaxxForce Engines Marketing,
Sales Practices and Products Liability Litigation, No.
20-1821, U.S. Court of Appeals for the Seventh Circuit.
Judgment entered Mar. 11, 2021.

vi
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . . . . . i
PARTIES TO THE PROCEEDING . . . . . . . . . . . . . . . . ii
CORPORATE DISCLOSURE STATEMENT . . . . . . . iv
STATEMENT OF RELATED PROCEEDINGS . . . . . v
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . vi
TABLE OF APPENDICES . . . . . . . . . . . . . . . . . . . . . .  ix
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . . . x
OPINIONS BELOW . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
CONSTITUTIONAL, PROCEDURAL, AND
STATUTORY PROVISIONS INVOLVED  . . . . . . . . . . 1
INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . 6
I.

Petitioners Purchased Eleven Navistar Trucks 6

II. Petitioners File Suit in Ohio State Court . . . . . . 7
III. The District Court’s Preliminary Approval
of the Class Settlement . . . . . . . . . . . . . . . . . . . . . 8

vii
Table of Contents
Page
IV. Petitioners Reject the Class Settlement . . . . . . . 8
V.

Navistar Claims the Class Settlement Bars
the Ohio Lawsuit  . . . . . . . . . . . . . . . . . . . . . . . . . . 9

VI. The District Court Denies Petitioners’
Motion by Disregarding Both the Reasonable
Indication Standard and the Pioneer Analysis 10
VII. The Seventh Circuit Rejects the Reasonable
Indication Standard, Ignores Pioneer
Analysis, and Adopts a Mechanically Rigid
Standard . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
REASONS FOR GRANTING THE PETITION . . . . 10
I.

Summary of Argument . . . . . . . . . . . . . . . . . . . . 10

II. The Seventh Circuit Decision (1) Departs
from Fifty Years of Class Settlement OptOut Practices and (2) Creates a Circuit
Split  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
A. The Reasonable Indication Standard
is the Long-Recognized Rule for Class
Opt-Outs . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
B. The Reasonable Indication Standard
Appropriately Protects Unnamed
Class Members’ Rights . . . . . . . . . . . . . . . . 13

viii
Table of Contents
Page
C. Petitioners’ Rejection of the Class
Settlement is a Sufficient Opt-Out
Under the Reasonable Indication
Standard . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
D. The Seventh Circuit’s Decision Rejects
the Reasonable Indication Standard
and Creates a Circuit Split . . . . . . . . . . . . . 16
E. The Decision Below Replaces the
Reasonable Indication Standard
with its Antitheses: the Mechanically
Rigid Standard . . . . . . . . . . . . . . . . . . . . . . .  17
F.

If the Seventh Circuit’s Decision Stands,
the Rights of Unnamed Class Members
in Seventh Circuit-Venued Cases will
be Afforded Less Protection Than
in Other Circuits  . . . . . . . . . . . . . . . . . . . . . 18

III. The Decision Below Conflicts With This
Court’s Precedent Because it Replaces the
Pioneer Four-Factor Equitable Test for
Excusable Neglect With the Mechanically
Rigid Standard . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21

ix
TABLE OF APPENDICES
Page
A P P E N DI X A — O P I N ION O F T H E
UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT, DATED
MARCH 11, 2021 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1a
A P P E N DI X B — O P I N ION O F T H E
UNITED STATES DISTRICT
COURT FOR THE NORTHERN
DISTRICT OF ILLINOIS , EA ST ERN
DIVISION, FILED APRIL 16, 2020 . . . . . . . . . . . 12a
APPENDIX C — DENIAL OF REHEARING
OF THE UNITED STATES COURT OF
APPEALS FOR THE SEVENTH CIRCUIT,
DATED APRIL 8, 2021  . . . . . . . . . . . . . . . . . . . . . . 30a

x
TABLE OF CITED AUTHORITIES
Page
Cases
Berger v. Compaq Comput. Corp.,
257 F.3d 475 (5th Cir. 2001) . . . . . . . . . . . . . . . . . . . . . 4
Council on Soc. Work Educ., Inc. v.
Texas Instruments Inc.,
105 F.R.D. 68 (N.D. Tex. 1985)  . . . . . . . . . . . . . . . . . 15
DeGier v. McDonald’s Corp.,
76 F.R.D. 125 (N.D. Cal. 1977) . . . . . . . . . . . . . . . . . . 14
Dep’t of Homeland Sec. v. New York,
140 S. Ct. 599 (2020) . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
Does 1-2 v. Deja Vu Services, Inc.,
925 F.3d 886 (6th Cir. 2019) . . . . . . . . . . . . . . . . . . . . 18
Herron v. City of Chicago,
618 F. Supp. 1405 (N.D. Ill. 1985)  . . . . . . . . . . . . . . . 15
In re Brand Name Prescription Drugs Antitrust
Litigation,
171 F.R.D. 507 U.S. 380  . . . . . . . . . . . . . . . . . . . . 19, 20
In re Four Seasons Securities Laws Litigation,
493 F.2d 1288 (10th Cir. 1974) . . . . . . . . . . . . . . passim

xi
Cited Authorities
Page
In re Navistar MaxxForce Engines Marketing,
Sales Practices and Products Liability
Litigation,
1:14-cv-10318 #809 (N.D. Ill. Apr. 16, 2020) . . . . . . . . 1
In re Travel Agent Comm’n Antitrust Litig.,
No. 1:03 CV 30000, 2006 WL 8439540 (N.D.
Ohio Sept. 14, 2006) . . . . . . . . . . . . . . . . . . . . . . . . . . .  17
In Re: General Motors LLC Ignition Switch
Litig.,
No. 14-MD-2543, 2021 WL 1566053 (S.D.N.Y.
Apr. 20, 2021) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  5, 17
Jeff D. v. Andrus,
899 F.2d 753 (9th Cir. 1989) . . . . . . . . . . . . . . . . . . . . 15
Kaufman v. Am. Express Travel Related
Services Co., Inc.,
877 F.3d 276 (7th Cir. 2017) . . . . . . . . . . . . . . . . . . . . . 4
Matter of Navistar MaxxForce Engines Mktg.,
Sales Pracs. & Prod. Liab. Litig.,
990 F.3d 1048 (7th Cir. 2021) . . . . . . . . . . . . . . . . . . 4, 5
McReynolds v. Richards-Cantave,
588 F.3d 790 (2d Cir. 2009) . . . . . . . . . . . . . . . . 4, 11, 12
Murphy v. Eddie Murphy Productions, Inc.,
611 F.3d 322 (7th Cir. 2010)  . . . . . . . . . . . . . . . . . . . . . 6

xii
Cited Authorities
Page
Ortiz v. Fibreboard Corp.,
527 U.S. 815 (1999)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
Phillips Petroleum Co. v. Shutts,
472 U.S. 797 (1985)  . . . . . . . . . . . . . . . . . . . . . . .  3, 13-1
Pioneer Inv. Servs. Co. v.
Brunswick Assocs. Ltd. P’ship,
507 U.S. 380 (1993) . . . . . . . . . . . . . . . . . . . . . . . passim
Plummer v. Chemical Bank,
668 F.2d 654 (2d Cir. 1982) . . . . . . . . . . . . . . . . . passim
Robb v. Norfolk & W. Ry. Co.,
122 F.3d 354 (7th Cir. 1997) . . . . . . . . . . . . . . . . . . 6, 20
Valley Drug Co. v.
Geneva Pharmaceuticals, Inc.,
262 Fed. Appx. 215 (11th Cir. 2008)  . . . . . . . . . . . . . 20
Wheaton Coll. v. Burwell,
134 S. Ct. 2806 (2014) . . . . . . . . . . . . . . . . . . . . . . . . . 19
Statutes and Other Authorities
17 C.J.S. Contracts § 43 (1963) . . . . . . . . . . . . . . . . . . . . 15
17A Am. Jur. 2d Contracts § 65 (1991) . . . . . . . . . . . . . . 15
28 U.S.C. 1254(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

xiii
Cited Authorities
Page
32B Am. Jur. 2d Federal Courts § 1693  . . . . . . . . . . . . 13
7A Wright and Miller, Federal Practice and
Procedure: Civil § 1787 (1972) . . . . . . . . . . . .  11, 12, 14
Arthur L. Corbin et al., Corbin on Contracts ACTS
§ 3.35 (rev. ed.1993) . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
F.R.C.P. 23, Advisory Committee Notes to 2018
Amendments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4, 13
Fed. R. Civ. P. 6(b)  . . . . . . . . . . . . . . . . . . . . . . . . . . passim
Fed. R. Civ. P. 6(b)(2) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
Fed. R. Civ. P. 23 . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1, 4, 13
Fed. R. Civ. P. 23(b)(3) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
Fed. R. Civ. P. 23(c)(3)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
Fed. R. Civ. P. 23(c)(2)(b)(v) . . . . . . . . . . . . . . . . . . . . . . . . 2
Fed. R. Civ. P. 23(c)(2)(b)(vi) . . . . . . . . . . . . . . . . . . . . . . . 2
Fed. R. Civ. P. 23(c)(2)(b)(vii) . . . . . . . . . . . . . . . . . . . . . . . 2
Fed. R. Civ. P. 23(e)(1)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
Fed. R. Civ. P. 50(b) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

xiv
Cited Authorities
Page
Fed. R. Civ. P. 50(d)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
Fed. R. Civ. P. 52(b)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
Fed. R. Civ. P. 59(b)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
Fed. R. Civ. P. 59(d)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
Fed. R. Civ. P. 59(e) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .2
Fed. R. Civ. P. 60(b) . . . . . . . . . . . . . . . . . . . . . . . . . passim
Fed. R. Civ. P. 60(b)(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
S. Ct. R. 10(a)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
Mechanics of exclusion in Rule 23(b)(3) class
actions—Means of exercising exclusion
opportunity, 3 Newberg on Class Actions § 9:46
(5th ed.) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
Opting out of class, 6 Cyc. of Federal Proc. § 23:33
(3d ed.)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
Seventh Circuit Rejects the “Reasonable Indication”
Approach for Class Member Opt- Outs,
JD SUPRA, Mar. 18, 2021 . . . . . . . . . . . . . . . . . . . . .  17

1
OPINIONS BELOW
The Seventh Circuit opinion (Pet. App. 1a) is
reported at 990 F.3d 1048. The district court’s order
denying Petitioners’ motion to be excluded from the class
settlement (Pet. App. 12a) is unpublished, but available
at In re Navistar MaxxForce Engines Marketing, Sales
Practices and Products Liability Litigation, 1:14-cv10318 #809 (N.D. Ill. Apr. 16, 2020).
JURISDICTION
The judgment of the court of appeals was entered on
March 11, 2021. A petition for rehearing was denied on
April 8, 2021. (Pet. App. 30a). Pursuant to this Court’s
July 19, 2021 Order, this petition is timely as it is filed
within 150 days from the date the petition for rehearing
was denied. The jurisdiction of this Court is invoked under
28 U.S.C. 1254(1).
CONSTITUTIONAL, PROCEDURAL, AND
STATUTORY PROVISIONS INVOLVED
Civil Rule 23 provides in relevant part:
For any class certified under Rule 23(b)(3)--or
upon ordering notice under Rule 23(e)(1) to
a class proposed to be certified for purposes
of settlement under Rule 23(b)(3)--the court
must direct to class members the best notice
that is practicable under the circumstances,
including individual notice to all members who
can be identified through reasonable effort. The
notice may be by one or more of the following:

2
United States mail, electronic means, or other
appropriate means. The notice must clearly
and concisely state in plain, easily understood
language:
(v) that the court will exclude from the class any
member who requests exclusion;
(vi) the time and manner for requesting
exclusion; and
(vii) the binding effect of a class judgment on
members under Rule 23(c)(3).
Fed. R. Civ. P. 23(c)(2)(b)(v)-(vii).
Civil Rule 6(b) provides:
(1) In General. When an act may or must be
done within a specified time, the court may, for
good cause, extend the time:
(A) with or without motion or notice if the court
acts, or if a request is made, before the original
time or its extension expires; or
(B) on motion made after the time has expired
if the party failed to act because of excusable
neglect.
(2) Exceptions. A court must not extend the time
to act under Rules 50(b) and (d), 52(b), 59(b), (d),
and (e), and 60(b).
Fed. R. Civ. P. 6(b).

3
Civil Rule 60(b) provides in relevant part: “Grounds
for Relief from a Final Judgment, Order, or Proceeding.
On motion and just terms, the court may relieve a party
or its legal representative from a final judgment, order,
or proceeding for the following reasons: . . . (1) mistake,
inadvertence, surprise, or excusable neglect[.]” Fed. R.
Civ. P. 60(b)(1).
INTRODUCTION
A person’s right to pursue legitimate legal claims
seeking redress is a “constitutionally protected property
interest” that demands due process. Phillips Petroleum
Co. v. Shutts, 472 U.S. 797, 807, 812 (1985).
Unnamed class members’ property rights, notably
their accrued causes of action against the class defendant,
are subject to release created through the negotiations
of the class plaintiff and class defendant. See Ortiz v.
Fibreboard Corp., 527 U.S. 815, 848 (1999). The dangers of
unfair prejudice to unnamed class members are amplified
because class settlements often contain nationwide
injunctions preventing independent suits against the class
defendant. See Dep’t of Homeland Sec. v. New York, 140
S. Ct. 599 (2020) (Justice GORSUCH, concurring) (noting
the dangers that nationwide injunctions pose on the justice
system).
So when can unnamed class members be stripped of
the right to their own day in court? And what can a court
demand of unnamed class members before recognizing
their desire to be excluded from a class settlement?

4
Given unnamed class members’ lack of control over
class proceedings, there is a “duty to ensure that the
due process rights of [these] absent class members are
safeguarded.” Berger v. Compaq Comput. Corp., 257
F.3d 475, 482 (5th Cir. 2001); See also, Kaufman v. Am.
Express Travel Related Services Co., Inc., 877 F.3d 276,
283 (7th Cir.2017) (acknowledging that district courts are
fiduciaries of the class).
Civil Rule 23 requires that opt-out procedures
“be as convenient as possible” for the unnamed class
members. F.R.C.P. 23, Advisory Committee Notes to 2018
Amendments. Likewise, the Second and Tenth Circuits
recognize that protecting the unnamed class members’
due process rights requires “considerable flexibility . . . in
determining what constitutes an effective expression of a
class member’s desire to exclude himself . . .” In re Four
Seasons Securities Laws Litigation, 493 F.2d 1288, 1291
(10th Cir. 1974). Thus, both circuits apply the Reasonable
Indication Standard for examining all class settlement
opts-out, even when the district court has established
specific opt-out procedures. Id.; Plummer v. Chemical
Bank, 668 F.2d 654, 657 n. 2 (2d Cir. 1982); McReynolds
v. Richards-Cantave, 588 F.3d 790, 800 (2d Cir. 2009).
In our case, the Seventh Circuit rejected the
Reasonable Indication Standard and replaced it with a
standard that insists on strict and rigid adherence to the
district court’s opt-out procedures. Matter of Navistar
MaxxForce Engines Mktg., Sales Pracs. & Prod. Liab.
Litig., 990 F.3d 1048, 1053 (7th Cir. 2021) (“Following the
mechanical rules is the only sure way to handle suits with
thousands of class members.”).

5
And it makes a big difference. Unnamed class
members in the Second and Tenth Circuits are now
afforded more due process protections than those in the
Seventh Circuit.
The Southern District of New York recently referenced
the disparate impact of the circuit split when it analyzed
a class member’s argument that he sufficiently opted out
of a class settlement despite not following the district
court’s opt-out instructions. In Re: General Motors LLC
Ignition Switch Litig., No. 14-MD-2543, 2021 WL 1566053
(S.D.N.Y. Apr. 20, 2021). There, the court explained that
the class member likely would have been “out of luck” had
the action been pending in the Seventh Circuit, because
the Seventh had “rejected the ‘reasonable indication’
standard.” Id. at *5, n.4 citing Navistar, 990 F.3d at 105253. But fortunately for that class member, the class action
was pending within the Second Circuit and his right to his
day in court was saved: “[T]he weight of authority in this
Circuit supports the ‘reasonable indication’ standard and,
thus, it would arguably be unfair to [the class member]
to deviate from that standard here, without clear prior
notice.” Id.
In contrast, unnamed class members whose claims
happen to be involved in a class action within the Seventh
Circuit will be “out of luck” and “out of court”, unless
they strictly comply with the district court’s opt-out
procedures. The standards to be applied to unnamed class
members in nationwide class actions should be applied
uniformly, not based on luck of the draw.
The Seventh Circuit’s decision here also departs from
this Court’s Pioneer decision. In Pioneer, this Court

6
adopted a four-part test for examining claims of excusable
neglect under Civil Rule 6(b) and 60(b). Pioneer, 507
U.S. at 394–95. The Seventh Circuit later adopted the
Pioneer test as the proper test for all excusable neglect
claims. Robb v. Norfolk & W. Ry. Co., 122 F.3d 354, 361
(7th Cir.1997) (adopting the new and more lenient Pioneer
multifactor excusable neglect analysis for Rule 60(b)
motions); Murphy v. Eddie Murphy Productions, Inc., 611
F.3d 322, 324 (7th Cir.2010). The decision below conflicts
with Pioneer and Robb because it replaces the four-factor
test with a Mechanical Rigidity Standard. Indeed, the
Seventh Circuit failed to mention Pioneer or Robb.
This case is the perfect vehicle for the Court to set a
uniform standard for nationwide class actions. This Court
should grant certiorari and (1) reject the Seventh Circuit’s
Mechanical Rigidity Standard in favor of the Reasonable
Indication Standard and (2) reject the Seventh Circuit’s
replacement of the Pioneer test with its Mechanical
Rigidity Standard.
STATEMENT OF THE CASE
I.

Petitioners Purchased Eleven Navistar Trucks.

Petitioners are two small, family-owned Ohio food
delivery companies. In 2011 and 2012, Petitioners paid
over a million dollars for eleven Navistar trucks equipped
with Respondents’ deficient and dangerous MaxxForce
13 engines. Respondents rushed the trucks to market,
knowing that the engines were untested, unproven, and
unready for public roadways. These trucks repeatedly
broke down, leaving Petitioners’ drivers and freight
stranded time and again. Respondents failed to fix several

7
major component defects, specifically the trucks’ emissions
systems. The problem became so bad that Petitioners
removed the trucks from their fleet. This was devastating
to these small businesses.
II. Petitioners File Suit in Ohio State Court.
In May 2014, Petitioners filed their own lawsuit in
Ohio state court against Navistar and a Navistar-approved
truck dealer (“Ohio Lawsuit”). [D.Ct. ECF 760-2, ¶ 16].
Respondents were separately embroiled in other lawsuits
with similar claims, but those cases did not affect the Ohio
Lawsuit because Petitioners’ case proceeded separately
from the other lawsuits. The Ohio Lawsuit was not part
of the multi-district litigation (“MDL”) at issue in the
Northern District of Illinois. [D.Ct. ECF 1]. Petitioners
wanted their own day in court.
During discovery, Petitioners pressed Navistar,
Inc. for information on other litigation and settlements
involving the Navistar engines. [D.Ct. ECF 792-4].
Navistar, Inc. refused to disclose such information,
claiming that other litigation (including the MDL) and
settlements were irrelevant to the claims in the Ohio
Lawsuit. [D.Ct. ECF 792-5].
In the Ohio Lawsuit, millions of pages of documents
were produced in discovery. [D.Ct. ECF 760-2, ¶ 8]
Approximately twenty depositions had been conducted.
[Id.] The parties engaged experts, who were also deposed.
[Id.] Countless hearings before the Ohio court had taken
place. And trial was set for June 2020. [Id.]

8
III. The District Court’s Preliminary Approval of the
Class Settlement.
In the MDL, the district court preliminarily approved
a nationwide class and settlement on June 12, 2019.
[R. 24, p. 82; R. 24, pp. 96-110]. Navistar, Inc. never
informed Petitioners’ counsel or the Ohio court of the
class settlement or any opt-out procedures that applied
to Petitioners. [D.Ct. ECF 792-3; D.Ct. ECF 792-4].
Respondents claim that a “short form notice” was sent
via U.S. Mail to Petitioners’ location in rural Sugarcreek
Ohio, the heart of Amish country. Petitioners’ president
provided a Declaration stating that he did not recall ever
receiving any such notice and that there was no record
of Petitioners ever receiving it. [D.Ct. ECF 760-1, ¶ 7].
Petitioners eventually heard of the potential class
action settlement in a news article. [R. 24, pp. 111-12].
That article did not mention any opt-out procedures, nor
did the article identify any impact on existing independent
litigation. Petitioners knew they wanted no part of any
class action settlement.
IV. Petitioners Reject the Class Settlement.
So on the heels of learning about a class settlement,
Petitioners sent a settlement demand to Navistar, Inc.
rejecting the class settlement by demanding substantially
different monetary terms. [Id., D.Ct. ECF 760-2, ¶ 15;
D.Ct. ECF 787-2, pp. 132-34]. In the settlement rejection,
Petitioners demanded a settlement sum which was 11 ½
times greater than the class settlement offer. [D.Ct. ECF
843, p. 3]. Thus, to the extent the class settlement applied

9
to their claims, Petitioners made clear their intent to opt
out. The parties agree that Navistar, Inc. received the
settlement rejection before any opt-out deadline.
The district court entered an order approving the
class settlement on January 21, 2020. [R. 24, pp. 82-95].
As Petitioners had rejected the class settlement, the
parties proceeded with discovery and toward trial in the
Ohio Lawsuit. Per agreement of the parties, additional
depositions were scheduled for February 18-19, 2020 in
the Ohio Lawsuit and Navistar continued to supplement
its document production. [D.Ct. ECF 760-2, ¶ 7, ¶ 21(n)].
V. Navistar Claims the Class Settlement Bars the Ohio
Lawsuit.
Petitioners’ counsel was busy reviewing hundreds
of exhibits to prepare for those depositions, when,
on Febr uar y 7, 2020, Respondents’ counsel sent
correspondence declaring the Ohio Lawsuit was over.
[Id., ¶ 3].
For the first time, Respondents claimed that
Petitioners were unnamed members of the class action
in the MDL and that Petitioners had not adequately
opted out of the class settlement. [Id., ¶ 4]. Petitioners
were stunned. After years of actively litigating their
independent state action, Petitioners were now being told
they would not get their day in court. [Id.].
Respondents have not suggested that they were
ever unaware of Petitioners’ desire to be excluded from
the class settlement. [See D.Ct. ECF 787]. Instead,
Respondents have merely argued that Petitioners did not
strictly follow the MDL Court’s formal opt-out procedure.

10
VI. The District Court Denies Petitioners’ Motion
by Disregarding Both the Reasonable Indication
Standard and the Pioneer Analysis.
Within a week of receiving Respondents’ letter about
the purported impact of the class settlement on the Ohio
Lawsuit, Petitioners filed a motion with the district
court, seeking to (1) confirm they opted out through the
settlement rejection or, alternatively, (2) give them more
time to formally opt out based on excusable neglect. [D.Ct.
ECF 759; D.Ct. ECF 760]. The district court denied
Petitioners’ motion. [Pet. App. 12a]. Petitioners filed their
notice of appeal to the Seventh Circuit on May 14, 2020.
[D.Ct. ECF 826].
VII. The Seventh Circuit Rejects the Reasonable
Indication Standard, Ignores Pioneer Analysis, and
Adopts a Mechanically Rigid Standard.
On March 11, 2021, the Seventh Circuit affirmed
the district court’s decision. [Pet. App. 1a]. The Seventh
Circuit adopted a new standard for determining whether
an unnamed class member opted out of a class settlement—
the Mechanically Rigid Standard. [Pet. App. 7a-11a]. On
March 24, 2021, Petitioners petitioned for rehearing en
banc citing, in part, that the decision created a circuit
split. On April 18, 2021, the Seventh Circuit denied the
petition. [Pet. App. 30a].
REASONS FOR GRANTING THE PETITION
I.

Summary of Argument

The Court should accept review of this case for two
reasons:

11
First, this case presents a question well-suited for the
Court’s jurisdiction because the Seventh Circuit’s decision
creates a split with the Second and Tenth Circuits on
the same issue. If the decision below stands, the Seventh
Circuit becomes the first circuit to reject the Reasonable
Indication Standard for class-action settlement optouts—a standard recognized for nearly fifty years. 7A
Wright and Miller, Federal Practice and Procedure:
Civil § 1787 (1972); In re Four Seasons Securities Laws
Litigation, 493 F.2d 1288 (10th Cir. 1974); Plummer v.
Chemical Bank, 668 F.2d 654, 657 n. 2 (2d Cir. 1982);
McReynolds v. Richards-Cantave, 588 F.3d 790, 800 (2d
Cir. 2009).
In doing so, the decision below dramatically shifts
away from the longstanding Reasonable Indication
Standard and replaces it with the new Mechanically Rigid
Standard. This circuit split affects nationwide class action
practice and impacts the due process rights of unnamed
class members. Indeed, unnamed class members’ due
process rights are no longer uniform, but are instead
determined by where the class action is filed: something
unnamed class members have no control over. This Court
has not yet spoken on this important question of federal
law, but should do so here.
Second, before the decision below, unnamed class
members could raise excusable neglect under Civil Rules
6(b) and 60(b) as grounds for permitting untimely optouts. Once raised, district courts examined the arguments
under the four-part equitable test of Pioneer, 507 U.S. 380.
That review looked at the following minimum factors: (1)
the danger of prejudice to other parties, (2) the length of
the delay and its potential effect on judicial proceedings,

12
(3) the reason for the delay, and (4) whether the moving
party acted in good faith. Pioneer, 507 U.S. at 395. The
Seventh Circuit’s decision eviscerates the multi-factor
analysis and replaces it with the Mechanically Rigid
Standard. By doing so, the decision below conflicts with
Pioneer. As a result, the Court should accept this case.
II. The Seventh Circuit Decision (1) Departs from Fifty
Years of Class Settlement Opt-Out Practices and
(2) Creates a Circuit Split.
A.

The Reasonable Indication Standard is the
Long-Recognized Rule for Class Opt-Outs.

When unnamed class members want to exclude
themselves from a nationwide class settlement, courts
have respected that desire as long as the unnamed class
members gave some “reasonable indication” of their intent
to not be part of the settlement. See 7A Charles Alan
Wright & Arthur R. Miller, Fed. Prac. & Proc. Civ. § 1787
(1972). The respected Federal Practice & Procedure
treatise says, “considerable flexibility is desirable in
determining what constitutes an effective expression of
a class member’s desire to be excluded and any written
evidence of that desire should suffice.” 7A Wright & Miller,
Fed. Prac. & Proc. Civ. § 1787 (3d ed.).
The Tenth Circuit, in In re Four Seasons Securities
Laws Litigation, 493 F.2d 1288, recognized the importance
of exercising “considerable flexibility” when determining
whether an unnamed class member sufficiently expressed
its intent to be excluded from a class settlement. Likewise,
the Second Circuit has held that “[a]ny reasonable
indication of a desire to opt out should suffice.” Plummer,
668 F.2d at 657 n. 2; McReynolds, 588 F.3d at 800.

13
Indeed, other legal treatises acknowledge the wellestablished Reasonable Indication Standard. Mechanics
of exclusion in Rule 23(b)(3) class actions—Means of
exercising exclusion opportunity, 3 Newberg on Class
Actions § 9:46 (5th ed.) (“When, as is inevitable, class
members do not follow the letter of the opt out provision
and ambiguity arises, courts must interpret whether the
class member’s actions demonstrate an intent to opt out.
The test adopted in most circuits requires that the class
members have expressed a ‘reasonable indication of a
desire to opt out.’”); Opting out of class, 6 Cyc. of Federal
Proc. § 23:33 (3d ed.) (“Parties are not required to adhere
to a strict formula when exercising their rights to opt-out
of class action settlement. It is generally sufficient that
a party give a reasonable indication of its intent to opt
out.”); 32B Am. Jur. 2d Federal Courts § 1693 (“In order
for an absentee class member to opt out of a class action,
a reasonable indication of a desire to opt out, even if not
explicit and formal, satisfies the Rules’ ‘requests exclusion’
standard.”).
The Advisory Committee Notes to Civil Rule 23 also
warn against imposing rigid requirements on unnamed
class members and instead say that opt-outs must be
made “as convenient as possible.” F.R.C.P. 23, Advisory
Committee Notes to 2018 Amendments.
B. T he R e a s on a ble I nd ic at ion S t a nd a r d
Appropriately Protects Unnamed Class
Members’ Rights.
Class actions predominately for money damages
require notice and opt-out procedures that comply with
due process. Phillips Petroleum Co. v. Shutts, 472 U.S. 797,

14
812 (1985). Why do courts apply the flexible Reasonable
Indication Standard? This standard emphasizes protecting
unnamed class members from forced inclusion in a class
settlement when they have expressed a desire to be
excluded.
The Northern District of Texas explained the
Reasonable Indication Standard’s justification:
The right to a “day in court” is, of course, of
constitutional dimensions, and there are an
array of valid reasons why a prospective class
member would choose to decline the class
invitation. Most obviously is one’s speculation
that one’s own claim would fare better in
litigation or settlement on its own. . . For
whatever reason, the right to bring or not to
bring one’s own case to court is an absolute
right that can only be infringed after giving
an adequate opportunity to exercise it. See
DeGier v. McDonald’s Corp., 76 F.R.D. 125,
127 (N.D.Cal.1977).
***
Any written evidence of the desire to exclude
oneself should suffice. 7A Wright and Miller,
Federal Practice and Procedure: Civil § 1787
(1972). See also Plummer v. Chemical Bank,
668 F.2d 654, 657 n. 2 (2d Cir.1982) (“Any
reasonable indication of a desire to get out
should suffice.”).
The Chicago traders seek nothing more than
to be uninvolved in this case. The exclusion

15
mechanism protects one’s right to be uninvolved.
It would be perverse, unsound and perhaps
unconstitutional to establish a prerequisite of
involvement before one can be permitted to be
uninvolved. (Emphasis added.).
Council on Soc. Work Educ., Inc. v. Texas Instruments
Inc., 105 F.R.D. 68, 70-72 (N.D. Tex. 1985).
C.

Petitioners’ Rejection of the Class Settlement
is a Sufficient Opt-Out Under the Reasonable
Indication Standard.

The Court may next ask whether Petitioners could
meet the Reasonable Indication Standard? The answer
is ‘yes.’ Indeed, Respondents, the district court, and the
Seventh Circuit never suggested that Petitioners could
not satisfy this standard. Petitioners formally rejected
the class settlement through a written counteroffer.
The class settlement, like all settlements, is a contract,
subject to the general rules of contract formation and
interpretation and “governed by familiar principles of
contract law.” Herron v. City of Chicago, 618 F. Supp. 1405,
1409 (N.D. Ill. 1985); Jeff D. v. Andrus, 899 F.2d 753, 759
(9th Cir. 1989).
Upon learning of a class settlement, Petitioners made
a settlement demand for 11 ½ times the amount of the class
settlement offer. A counteroffer is not an acceptance, but
a rejection of the original offer. See Arthur L. Corbin et
al., Corbin on Contracts ACTS § 3.35, at 490 (rev. ed.1993);
17A Am. Jur. 2d Contracts § 65 (1991); 17 C.J.S. Contracts
§ 43 (1963).

16
This rejection of the class settlement before the
district court’s opt-out deadline, along with Petitioners’
continued prosecution of the Ohio Lawsuit, certainly
constitutes some “reasonable indication” of their intent
to be excluded from the settlement.
D.

The Seventh Circuit’s Decision Rejects the
Reasonable Indication Standard and Creates
a Circuit Split.

The decision below rejects the Reasonable Indication
Standard. The Seventh Circuit appears to suggest that
the Second and Tenth Circuits only apply the Reasonable
Indication Standard if the district court has not issued optout instructions. (Pet. App. 9a) Not so. Courts, including
the Second and Tenth Circuits, apply the Reasonable
Indication Standard even where the district court had
issued opt-out instructions.
In Plummer, the district court ordered unnamed class
members “to opt out by filing a written request with ‘a brief
statement of the reasons therefor.’” Plummer, 668 F.2d at
657. In In re Four Seasons Securities, the district court
ordered unnamed class members to “file a written request
with the clerk of the court” by a date certain. In re Four
Seasons, 493 F.2d at 1289. In both cases, the appellate
court applied the Reasonable Indication Standard when
(1) the district court provided opt-out procedures and (2)
the unnamed class member tried to opt out in a manner
differing from the court’s opt-out procedures.
The Seventh Circuit’s decision does not distinguish
the Second and Tenth Circuits’ Reasonable Indication
Standard. Instead, the decision below rejects the standard

17
and creates a clear circuit split. Indeed, legal industry
publications and recent federal district case law recognize
that the decision below rejected the Reasonable Indication
Standard in favor of a “mechanical rule.” McGuire Woods,
LLP, Seventh Circuit Rejects the “Reasonable Indication”
Approach for Class Member Opt-Outs, JD SUPRA, Mar.
18, 2021, https://www.jdsupra.com/legalnews/seventhcircuit-rejects-the-reasonable-6007261/; In Re: General
Motors LLC Ignition Switch Litig., No. 14-MD-2543, 2021
WL 1566053 at *5, n.4 (S.D.N.Y. Apr. 20, 2021).
E. The Decision Below Replaces the Reasonable
Indication Standard with its Antitheses: the
Mechanically Rigid Standard.
Under the Second and Tenth Circuits’ decisions,
Petitioners were not required to “meet stringent and
formalistic standards in order to” withdraw from the class
settlement. Petitioners needed only to communicate “a
‘reasonable indication of a desire to opt out[.]’” In re Travel
Agent Comm’n Antitrust Litig., No. 1:03 CV 30000, 2006
WL 8439540, at *3 (N.D. Ohio Sept. 14, 2006), quoting In
re Four Seasons Securities Laws Litigation, 493 F.2d
1288.
Here, the Seventh Circuit rejected flexibility in favor
of rigidity. [Pet. App. 11a](“Following the mechanical
rules is the only sure way to handle suits with thousands
of class members.”). The Seventh Circuit now demands
nothing less than absolute adherence to the formal opt-out
requirements that Respondents proposed and the district
court adopted as part of its preliminary approval order.
The decision prioritizes the convenience of the
court, over the due process rights of unnamed class

18
members. [Pet. App. 9a]. The Seventh Circuit suggested
that rigid compliance with the district court’s opt-out
procedures is necessary to avoid opening the floodgates
for unnamed class members bombarding district courts
with ‘reasonable indication’ issues. This is an unwarranted
assumption. The Reasonable Indication Standard has a
50-year record that does not support any concern that the
district courts have been overburdened with ‘reasonable
indication’ analyses.
F.

If the Seventh Circuit’s Decision Stands, the
Rights of Unnamed Class Members in Seventh
Circuit-Venued Cases will be Afforded Less
Protection Than in Other Circuits.

The Reasonable Indication Standard furthers the
courts’ obligations to protect due process rights of
unnamed class members. See Does 1-2 v. Deja Vu Services,
Inc., 925 F.3d 886, 900 (6th Cir.2019) (acknowledging
issues relating to class action notices involve unnamed
class members’ due process rights).
The effect of this circuit split is undeniable. The
decision below creates a two-tiered system creating
different due process rights for unnamed class members,
dependent solely upon the venue of the class action.
If this case had been filed in the Second Circuit or
the Tenth Circuit, the result would have been different.
The analysis would not have been limited to whether
Petitioners strictly adhered to the district court’s opt-out
procedure. Instead, it would have found that Petitioners
reasonably indicated their intent to be excluded through
their unambiguous written counteroffer to the class
settlement.

19
If left to stand, the Seventh Circuit’s decision creates
an irreconcilable inter-circuit conflict. This is the type
of issue needing the Court’s review. Wheaton Coll. v.
Burwell, 134 S. Ct. 2806, 2807 (2014) (resolving a circuit
split “is a traditional ground for certiorari”); see S. Ct.
Rule 10(a).
III. The Decision Below Conflicts With This Court’s
Precedent Because it Replaces the Pioneer FourFactor Equitable Test for Excusable Neglect With
the Mechanically Rigid Standard.
The Seventh Circuit’s decision departs from this
Court’s precedent mandating use of the Pioneer test
for excusable neglect claims. Petitioners claimed before
the district court that (1) they had opted out under the
Reasonable Indication Standard, but (2) also that if they
did not adequately opt out, they should be permitted to do
so in February 2020 due to excusable neglect. [See R. 24,
pp. 43-51; see also R. 36, pp. 28-32]. The decision below
ignores this Court’s precedent on the excusable neglect
analysis. This is a further ground for the Court to accept
review of this case.
The standard for an enlargement of time under Civil
Rule 6(b)(2) is “excusable neglect.” In re Brand Name
Prescription Drugs Antitrust Litigation, 171 F.R.D.
at 215–16. In Pioneer, this Court examined the same
standard in the context of a different rule but enunciated
a rule which has then been applied to Rule 6(b)(2). 507 U.S.
380; In re Brand Name Prescription Drugs Antitrust
Litigation, 171 F.R.D. at 215–16. The Court held the
“neglect” prong of the standard includes the failure to
meet a deadline. Pioneer, 507 U.S. at 394–95. The Court

20
also held the excusable neglect determination stems from
equity, “taking account of all relevant circumstances
surrounding” the failure to meet the deadline. Id. at 395.
The factors that must be analyzed include (1) the danger of
prejudice to other parties, (2) the length of the delay and
its potential effect on judicial proceedings, (3) the reason
for the delay, and (4) whether the moving party acted in
good faith. Id. If the movant’s negligence is excusable,
then enlargement is appropriate. In re Brand Name
Prescription Drugs Antitrust Litigation, 171 F.R.D. at
215–16. See Valley Drug Co. v. Geneva Pharmaceuticals,
Inc., 262 Fed.Appx. 215, 219 (11th Cir.2008).
In Robb, the Seventh Circuit acknowledged that the
landscape of Rule 6(b) and Rule 60(b) analyses rebooted
after this Court’s Pioneer decision. Robb, 122 F.3d at
359-62. While a court maintains certain discretion in
deciding whether a failure to meet a deadline is excusable,
the “discretion is not limitless.” Id. at 363. Any analysis
of excusable neglect “must be exercised after careful
consideration of ‘all relevant circumstances surrounding
the omission’ in a particular case, including the equitable
factors set forth in Pioneer.” Id. (emphasis original).
Failing to conduct that analysis constitutes reversible
error. Id.
Here, the Seventh Circuit failed to mention (1)
Pioneer, (2) Robb, (3) Rule 6(b), or (4) Rule 60(b). Instead,
the appellate court’s decision replaced the equitable,
totality-of-the-circumstances test with its newly created
Mechanically Rigid Standard. Under this new test, a
district court need not analyze Pioneer’s excusable neglect
factors because the court need ask only one question: did
the unnamed class member strictly follow the district

21
court’s mechanical opt-out procedure? As a result, all 6(b)
and 60(b) motions seeking to opt out after the deadline
would fail under the Mechanically Rigid Standard. This
creates inequitable results.
The Seventh District’s decision conflicts with this
Court’s Pioneer decision on the standard to be applied to
motions under Civil Rules 6(b) and 60(b). As a result, the
Court should accept review of this case.
CONCLUSION
This Court should grant the petition.
Respectfully submitted,
Owen J. Rarric
Counsel of Record
Matthew P. Mullen
Krugliak, Wilkins, Griffiths
& Dougherty Co., L.P.A.
4775 Munson Street, N.W.
P.O. Box 36963
Canton, Ohio 44735
(330) 497-0700
orarric@kwgd.com
Attorneys for Petitioners
Drasc, Inc. and S&C Trucks
of Winklepleck, Ltd.

APPENDIX

1a
APPENDIX A — Appendix
OPINIONAOF THE UNITED
STATES COURT OF APPEALS FOR THE
SEVENTH CIRCUIT, DATED MARCH 11, 2021
IN THE UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT
No. 20-1821
IN THE MATTER OF:
NAVISTAR MAXXFORCE ENGINES
MARKETING, SALES PRACTICES, AND
PRODUCTS LIABILITY LITIGATION,
APPEAL OF:
DRASC, INC., AND S&C TRUCKS
OF WINKLEPLECK, LTD.
Appeal from the United States District Court for the
Northern District of Illinois, Eastern Division.
No. 1:14-cv-10318. Joan B. Gottschall, Judge.
November 2, 2020, Argued;
March 11, 2021, Decided
Before SYKES, Chief Judge, and EASTERBROOK and
WOOD, Circuit Judges.
OPINION
E asterbrook , Circuit Judge. A class of owners
accused Navistar of selling trucks with defective engines.

2a
Appendix A
The suit was settled for $135 million, and in June 2019
the district court gave its preliminary approval. Before
the approval could become final, the court had to notify
class members of their right to opt out, and it needed to
consider any substantive objections by class members
who elected to be bound by the settlement. Fed. R. Civ.
P. 23(e). On August 9, 2019, a court-approved notice was
sent by first-class mail to all class members describing the
claims, the scope of the suit, the terms of the settlement,
and the option to litigate independently. Paragraph 29 of
the district court’s order reads:
Class Members who wish to exclude themselves
from (i.e., opt out of) the Settlement must
sent [sic] an [sic] request to opt-out that:
(1) includes the Class Member’s full name,
address, and telephone number; (2) identifies
the model, model year, and VIN of the Class
Member’s Class Vehicle(s); (3) explicitly and
unambiguously state his, her, or its desire to
be excluded from the Settlement Class in In re
Navistar MaxxForce Engines Marketing, Sales
Practices and Products Liability Litigation;
and (4) be individually and personally signed
by the Class Member. If the Class Member
is an entity and not an individual, the opt-out
must be signed by an officer or director of the
entity and include an affidavit that attests to
that person’s ability to act on behalf of that
entity. All Opt Outs must be submitted no later
than sixty (60) calendar days after the Notice
Date, a total of one hundred and twenty (120)

3a
Appendix A
calendar days from the date of this Order.
Class Members who submit a timely Opt Out
will be excluded from the Settlement, will not
receive any benefit, and will not release any
claims. All Class Members who do not Opt Out
in accordance with the terms of this Order, the
Settlement, and the instructions set forth in the
Settlement and this Order, shall be bound by
all determinations and judgments concerning
the Settlement.
The parallel provision in the instructions sent to class
members was simpler: “You can file a claim by May 11,
2020, exclude yourself by October 10, 2019, or object to
the Settlement by October 10, 2019.” The instructions
included a link to a website with the full opt-out details
and a phone number to call for people who wanted to get
the details orally.
The court held a fairness hearing on November
13 and rejected some class members’ objections to the
Settlement. On January 21, 2020, it entered a final
judgment implementing the settlement. That ended the
litigation.
Or not. Two members of the class (collectively Drasc)
had sued Navistar in Ohio concerning the engines of
Navistar’s trucks. The federal court declined to enjoin
parallel suits in state court, see Adkins v. Nestlé Purina
PetCare Co., 779 F.3d 481 (7th Cir. 2015), so the Ohio case
proceeded while the federal action was pending. After
the district court approved the Settlement, however,

4a
Appendix A
Navistar’s lawyers notified Drasc’s counsel that its suit
is barred by the release in the Settlement and final
judgment. Drasc concedes that this is so but maintains
that it should not be bound. It argues, first, that it never
received notice of the Settlement and need to opt out and,
second, that its effort to continue litigating in Ohio should
be deemed a “reasonable indication” of a desire to opt out.
The district court permitted Drasc to intervene in
order to present its belated argument for exclusion from
the class. After receiving evidence, the court made several
findings:
• Two first-class letters had been sent to Drasc at its
business addresses.
• Drasc concedes that the envelopes were addressed
properly but says that its files do not contain the
letters—and its president says that he does not
remember receiving them—but mailing is evidence
of receipt, see Hagner v. United States, 285 U.S.
427, 430, 52 S. Ct. 417, 76 L. Ed. 861 (1932), and a
disclaimer of memory does not refute receipt.
• Drasc had been given an opportunity to provide an
email address to Navistar for notice and had chosen
not to do so. (Class members who provided email
addresses received notice that way in addition to
postal mail.)
• Drasc’s lawyers in the Ohio suit had actual notice of
the settlement. They had sent a letter to Navistar’s

5a
Appendix A
counsel the day after the preliminary hearing on
the settlement (May 30, 2019), showing awareness of
the pending class action. And a settlement demand
that Drasc’s lawyers sent to Navistar on July 26,
2019, discusses the difference between what Drasc
wanted in the Ohio case and what it expected to
receive from the class-action settlement.
• Drasc’s lawyers must have known about the need
to opt out. No modern lawyer is unaware of the
procedures for managing class actions. Nonetheless,
Drasc’s lawyers did not do anything to protect its
interest in opting out.
• Because Drasc had actual knowledge (through the
letters and counsel) of the need to opt out, it could
not show excusable neglect that would justify an
extension of the opt-out deadline.
None of these findings is clearly erroneous. Still, Drasc
insists that notice by first-class mail is insufficient under
the Due Process Clause of the Fifth Amendment.
That’s a hard line of argument to pursue, given
Dusenbery v. United States, 534 U.S. 161, 122 S. Ct. 694,
151 L. Ed. 2d 597 (2002), which holds that mail (to the
correct address) satisfies the constitutional requirement
that notice be reasonably calculated to give actual
knowledge. If the Postal Service returns mail unclaimed,
some other form of notice may be necessary. See Jones
v. Flowers, 547 U.S. 220, 126 S. Ct. 1708, 164 L. Ed. 2d
415 (2006). But the district judge found that neither of

6a
Appendix A
the letters sent to Drasc was returned. And the court’s
unchallenged finding that Drasc’s lawyers in Ohio had
actual knowledge of the litigation and its Settlement
eliminates any opportunity for Drasc to argue that mail
must be certified rather than plain-vanilla first-class
envelopes. A lawyer’s knowledge is imputed to the client.
Counsel also could have checked the docket of the class
action, which they knew was pending, and would have
found the opt-out notice. Its language is clear enough to
tell even a layperson that someone who does not opt out
will be “bound” by the Settlement, which releases all
claims against Navistar arising from engines subject to
the federal litigation.
A district judge has discretion to permit an untimely
opt out when the delay is excusable. See Burns v. Elrod,
757 F.2d 151, 155 (7th Cir. 1985) (citing Zients v. La Morte,
459 F.2d 628 (2d Cir. 1972)). The district judge did not
abuse her discretion in finding Drasc’s delay inexcusable.
Counsel’s actual knowledge of the Settlement is conclusive.
The district judge suspected that Drasc was trying to
achieve the benefits of one-way intervention: to take the
greater of the class-action settlement or the result in Ohio.
That used to be permissible but has not been allowed since
the 1966 amendments to Rule 23. See Premier Electrical
Construction Co. v. National Electrical Contractors
Ass’n, Inc., 814 F.2d 358, 362-63 (7th Cir. 1987). Class
members must make an irrevocable choice: take their
share of whatever the class receives, or take the outcome
of a separate suit. To allow both is to provide a litigant with
more than the suit’s actuarial value. (To see this, suppose
that a class member’s claim has a 50% chance of success

7a
Appendix A
and will produce damages of $10,000. An actuarially fair
Settlement through the class, or stand-alone litigation,
would be worth $5,000. But if the litigant can go for broke
in a separate suit, getting either $0 or $10,000, and fall
back on the class Settlement if it loses, the combined value
of those two options is $7,500.)
Nonetheless, Drasc insists, its continued litigation
in Ohio should have been deemed enough to show that it
wanted to opt out. It asks us to adopt a rule under which
any “reasonable indication” of a desire to exclude oneself
from the class should suffice. This is a possibility that
we have mentioned before but not adopted. See Sanders
v. John Nuveen & Co., Inc., 524 F.2d 1064, 1075 (7th Cir.
1975). We do not adopt it today, either.
If all a class member had to go on were the language
of Rule 23(c)(2)(B)(v), which provides “that the court
will exclude from the class any member who requests
exclusion”, a judge should be flexible about how the
“request” is made. The Rule’s lack of specificity was the
genesis of the “reasonable indication” approach, which
stems from an observation that a treatise made almost
50 years ago, long before district courts began to enter
precise orders such as ¶29.
Wright & Miller stated in 1972 that “considerable
flexibility is desirable in determining what constitutes
an effective expression of a class member’s desire to
exclude himself and any written evidence of it should
suffice.” Charles Alan Wright & Arthur R. Miller, 7A
Federal Practice & Procedure § 1787 (1972) (now 7AA

8a
Appendix A
Federal Practice & Procedure Civil § 1787 (3d ed.)). The
“reasonable indication” language comes from the Tenth
Circuit’s adoption of Wright & Miller’s standard. In re
Four Seasons Securities Laws Litigation, 493 F.2d 1288,
1291 (10th Cir. 1974) (“A reasonable indication of a desire
to opt out ought to be sufficient.”). The Tenth Circuit held
that a district court did not abuse its discretion by finding
that a class member effectively opted out in a letter to the
Trustee for Four Seasons, rather than to the clerk of court
as the notice had directed. The Tenth Circuit quoted and
relied on Wright & Miller: “As the authors of the treatise
cited above indicate, flexibility is desirable in determining
what constitutes an expression of a class member’s desire
to exclude himself and any written evidence of it ought to
be sufficient.” Ibid. The Tenth Circuit did not hold that
a district judge must accept an opt-out letter sent to the
wrong person, only that it could do so.
The Second Circuit picked up the “reasonable
indication” language in Plummer v. Chemical Bank,
668 F.2d 654 (2d Cir. 1982). See also McReynolds v.
Richards-Cantave, 588 F.3d 790, 800 (2d Cir. 2009).
Plummer observed that “we find nothing in Rule 23 which
requires them to file written reasons for their exercise
of choice. Any reasonable indication of a desire to opt out
should suffice.” 668 F.2d at 657 n.2. And that observation
about Rule 23 is beyond question. Neither Plummer nor
McReynolds asks whether a district court can issue a more
precise direction and insist that it be followed.
That is the end of the trail. No other circuit has
adopted “reasonable indication” as a legal standard, and

9a
Appendix A
at least one circuit—see In re Deepwater Horizon, 819
F.3d 190, 196-98 (5th Cir. 2016)—has joined Sanders in
reserving judgment.
We agree with the Tenth and Second Circuits that,
when a district court has not issued instructions about
how to opt out, the judge is free to accept as adequate any
“reasonable indication” of such a desire. Our problem is
different: Must a judge who has specified in excruciating
detail how opting out is to be accomplished accept some
different means? To that question the answer must be no.
One reason is that any approach that avoids the
need for a clear choice preserves the option of one-way
intervention. Suppose that Drasc had gone to trial in
Ohio, lost, and then claimed a share of the class-action
Settlement, asserting that its lack of a formal opt-out
notice means that it is entitled to that benefit. The
possibility of having things both ways is foreclosed when
courts stick to the rules they have established.
Another is that the “reasonable indication” approach
could make class actions difficult if not impossible to
administer. Classes may have thousands, even millions,
of members. A clear rule established in something
like ¶29 can be implemented mechanically by a claims
administrator. A “reasonable indication” approach, by
contrast, could pose dozens or hundreds of difficult
questions for a judge. In response to Drasc’s motion the
district court took evidence, made findings, and wrote
a 14-page opinion. Imagine that exercise a dozen or a
hundred times over, each with slightly different facts

10a
Appendix A
asserted to show a “reasonable indication” that someone
wanted to do something.
Courts have long resisted that sort of complication. To
begin a lawsuit, someone must file a particular document
(the complaint) in a particular place (the clerk’s office) by
a particular date (the statute of limitations). A “reasonable
indication” of a desire to sue won’t suffice. To appeal
an adverse decision, the litigant must file a particular
document (a notice of appeal) in a particular place (the
clerk’s office) by a particular time (Fed. R. App. P. 4). A
“reasonable indication” of a desire to appeal won’t do.
There may be questions about whether a document is
a notice of appeal: the answer is yes, regardless of its
caption, if it is filed in court and contains the information
required by Fed. R. App. P. 3. See Smith v. Barry, 502
U.S. 244, 112 S. Ct. 678, 116 L. Ed. 2d 678 (1992). But no
judge would treat a letter from a litigant to his lawyer,
or litigation in state court, as a notice of appeal in federal
court. Similar examples abound.
Think about the problem of interpreting the actions by
Drasc and its lawyers in the Ohio litigation. They served
discovery requests and made Settlement proposals that,
they say, Navistar’s lawyers should have understood as a
desire to litigate independently. But Navistar insists that
it saw these things only as the natural consequence of the
district court’s decision not to enjoin pending state suits,
which then had to be pursued or be dismissed for want
of prosecution. Navistar also could have seen the activity
in Ohio as evincing Drasc’s hope to get the higher of two
possible remedies: its share of the class-action Settlement

11a
Appendix A
or whatever it could persuade a jury to award in Ohio.
Meanwhile none of the information from Ohio came to the
attention of the claims administrator in the class action,
which would have treated Drasc as a class member and
cut a check unless something stopped that process. How
is the judge supervising the federal proceedings supposed
to interpret these events? There is no right way to do so,
which implies that the judge is entitled to insist that class
members follow the instructions they have been given and
opt out (or not) in the formal way the district judge told
them to use.
Following mechanical rules is the only sure way to
handle suits with thousands of class members. This also
helps the judge to know whether to approve the Settlement
as a substantive matter. Without knowing who remains
in, the judge could not decide whether $135 million is
appropriate or perhaps should be reduced by opt-outs’
claims, or treated as inadequate because class members
had voted with their feet to disapprove the resolution.
The district judge, having approved a detailed process in
¶29, was entitled to require the class members to do what
they had been told or bear the consequences of inaction.
This means that Drasc did not opt out, and its effort to
litigate separately in Ohio is barred by the release in the
Settlement.
A ffirmed

12a
APPENDIX B — Appendix
OPINIONBOF THE UNITED
STATES DISTRICT COURT FOR THE NORTHERN
DISTRICT OF ILLINOIS, EASTERN DIVISION,
FILED APRIL 16, 2020
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF ILLINOIS
EASTERN DIVISION
Master Case No. 1:14-cv-10318
This filing applies to All Class Cases
IN RE NAVISTAR MAXXFORCE ENGINES
MARKETING, SALES PRACTICES AND
PRODUCTS LIABILITY LITIGATION
Judge Joan B. Gottschall
PRETRIAL ORDER NO. 36
Two non-parties, Drasc, Inc. and S&C Trucks of
Winklepleck, Ltd. (collectively “Drasc”), have filed a
motion seeking to be excluded from the court-approved,
$135 million class action settlement in this multi-district
litigation (“MDL”). Drasc did not opt out of the settlement
by the deadline of October 10, 2019. Nor did Drasc
attempt to advise this court of its intent to opt out before
final judgment approving the settlement was entered
in January 2020. Drasc asks the court either to extend
Drasc’s deadline to opt out or to find that it effectively
opted out by litigating a case against the defendants in
Ohio state court. For the reasons that follow, the court
denies the motion.

13a
Appendix B
Approval of the Class Settlement and Notice
This MDL concerns alleged defects in the engines
of model year 2010–13 heavy-duty trucks manufactured
and sold by the defendants (collectively “Navistar”). The
parties reached a class settlement in 2019. As Federal
Rule of Civil Procedure 23(e) requires, the court granted
preliminary approval on June 12, 2019. Pretrial Order
(“PTO”) No. 29, ECF No. 648.
Before granting preliminary approval, the court raised
concerns about, among other things, paragraph 21 of the
proposed order. PTO28 at 3. To the extent paragraph 21
could have been read as enjoining then-pending parallel
suits, Seventh Circuit law required a more complete record
before the court could take that extraordinary step. Id.
(citing Adkins v. Nestle Purina PetCare Co., 779 F.3d
481, 482–83 (7th Cir. 2015)). The settling parties were
provided with an opportunity to supplement the record.
Id. at 5. They instead dropped the proposed injunction of
parallel litigation and rewrote paragraph 21 to state that
the final approval order would prevent class members who
did not opt out from continuing to litigate covered claims
against Navistar. See Tr. of H’rg held May 31, 2019, at
5–7, ECF No. 787, Ex. 2; PTO29 ¶ 21. The final approval
order enjoins class members who did not validly opt out
from continuing parallel litigation of released claims. See
ECF No. 746 ¶ 26.
The preliminary approval order required the
settlement administrator to send class members a courtapproved settlement notice, by email and first-class mail,

14a
Appendix B
within 60 days. See PTO29 ¶ 25. The notice stated that the
class member would “be bound” by the settlement unless
it opted out. ECF Nos. 641-2 at 2; 641-4 at 3; see also
ECF No. 641-6 at 7–8 (language posted on the settlement
website further explaining the process for opting out).1
Notices were sent on August 9, 2019, and objections were
due October 9, 2019. See PTO29 ¶ 29. Paragraph 29 of
the preliminary approval order specified the process for
opting out:
29. Class Members who w ish to exclude
themselves from (i.e., opt out of) the Settlement
must sent [sic] an [sic] request to opt-out that:
(1) includes the Class Member’s full name,
address, and telephone number; (2) identifies
the model, model year, and VIN of the Class
Member’s Class Vehicle(s); (3) explicitly and
unambiguously state his, her, or its desire to
be excluded from the Settlement Class in In re
Navistar MaxxForce Engines Marketing, Sales
Practices and Products Liability Litigation;
and (4) be individually and personally signed
1. The court also approved the settling parties’ plan to
create a website for the settlement and post, among other things,
a long form notice. The short form notices sent to class members
advised them to refer to the website for further information. The
long form notice contained the following language: “You can call
toll-free 1-833-222-1176, email info@MaxxForce11and13.com, or
visit the website at www.MaxxForce11and13.com, where you will
find answers to common questions about the Settlement, an online
Claim Form, and important documents related to the Settlement.
You should check the website regularly for updates on the case.”
ECF No. 641-3 at 11.

15a
Appendix B
by the Class Member. If the Class Member
is an entity and not an individual, the opt-out
must be signed by an officer or director of the
entity and include an affidavit that attests to
that person’s ability to act on behalf of that
entity. All Opt Outs must be submitted no later
than sixty (60) calendar days after the Notice
Date, a total of one hundred and twenty (120)
calendar days from the date of this Order.
Class Members who submit a timely Opt Out
will be excluded from the Settlement, will not
receive any benefit, and will not release any
claims. All Class Members who do not Opt Out
in accordance with the terms of this Order, the
Settlement, and the instructions set forth in the
Settlement and this Order, shall be bound by
all determinations and judgments concerning
the Settlement.
PTO29 ¶ 29. A fairness hearing was held on November
13, 2019, at which the court heard argument from
objectors and the settling parties. The court overruled
the objections, PTO31, ECF No. 730, and entered a final
judgment in accordance with the settlement on January
21, 2020, ECF No. 746.
The Ohio Litigation
Drasc has been litigating claims against Navistar in
Ohio state court since 2014 (“The Ohio litigation”). 2 At all
2. Drasc initially sued Navistar and a truck dealer in Ohio
state court in May 2014. It actively litigated the case for more

16a
Appendix B
times, Drasc has been represented by counsel. Decl. of
M. Onest ¶¶ 8-9, ECF No. 760, Ex. 2.
On February 7, 2020, Navistar advised Drasc’s
lawyers by email that it believes the settlement here
released Drasc’s claims in the Ohio suit. Onest Decl. ¶ 4;
ECF No. 760, Ex. A. Drasc’s owner and president, Rodney
Gordon (“Gordon”), avers that he does “not recall receiving
or reviewing any class action settlement notice prior to the
deadline to opt out, and he has “no record showing that
[he] or [Drasc] ever received a copy of such notice.” Decl. of
R. Gordon ¶ 7, ECF No. 760, Ex. 1. Gordon further states
in his declaration that he and Drasc first became aware
of the settlement on February 10, 2020, when Drasc’s
counsel forwarded Navistar’s letter to Gordon. Id. ¶ 8.
Drasc’s counsel, Onest, similarly avers that his law firm
“received no notice of the Settlement at any time prior to
the February 7th Letter.” Onest Decl. ¶ 5.
Uncontested evidence shows that notices were sent by
first-class mail to two addresses associated with the Drasc
parties, and neither notice was returned as undeliverable.
Decl. of J. Keough ¶¶ 8–11, ECF No. 787, Ex. 3. Drasc
does not contest the validity of these addresses, which
were gleaned from department of motor vehicle records
and data aggregators. See id.
than three years before voluntarily dismissing the case in 2017.
See Mem. Supp. 3; Onest Decl. ¶¶ 16–18. Drasc does not explain
why it voluntarily dismissed the suit or why the case was refiled
approximately one year later. The pending Ohio suit is captioned
Drasc, Inc., et al., v. Navistar, Inc., et al., No. 2018 CV 07 0635,
pending in the Tuscarawas County Court of Common Pleas.

17a
Appendix B
During the pendency of the Ohio litigation, the parties
exchanged more than one million pages of discovery and
took at least 20 depositions. Navistar filed more than 150
pleadings and other papers. See Onest Decl. ¶¶ 8, 10. As
of February 2020, the Ohio state court had set a trial date
in June 2020. Id. ¶¶ 8, 16–19.
According to the declaration of one of Drasc’s
attorneys, Matthew Onest, Navistar participated in
“multiple” hearings after the date the notice was sent
to class members. Onest Decl. ¶ 12. Navistar’s lawyers
did not mention the settlement at those hearings or in
its communications with Drasc’s counsel. Id. ¶¶ 12, 22.
Between August 9, 2019, and February 9, 2020, the parties
to the Ohio litigation designated experts, litigated at least
three discovery motions, exchanged discovery requests
and responses, and briefed a summary judgment motion
filed by Navistar and a motion to reconsider a prior partial
summary judgment ruling. See Onest Decl. ¶¶ 20–21. Four
days after this court entered judgment approving the
class settlement, Navistar noticed depositions of Drasc’s
corporate representatives for February 25, 2020. Id.
¶ 21(m).
After this court granted preliminary approval in June
2019 but before notice was sent to class members, Drasc
served Navistar with a settlement demand that “was far
different” from the terms of the class settlement. Onest
Decl. ¶ 15. Drasc did not include a copy of the letter with
its filings, but Navistar did. The letter explicitly references
the preliminary approval of the $135 million settlement in
this action as a reason for the demand. ECF No. 787, Ex.

18a
Appendix B
5 at 1 (“Since that time, Navistar . . . has agreed to settle
a class action in the amount [sic] $135 Million”). Navistar
also submits an email message dated May 30, 2019, from
one of Drasc’s lawyers discussing Navistar’s press release
announcing the $135 million settlement. Id. Ex. 6.
Drasc filed the pending motion on February 7, 2020.
It seeks an order either confirming that it validly opted
out or an extension of its deadline to opt out.
Intervention
The court begins with a threshold procedural matter
neither Drasc nor Navistar discusses. 3 Drasc has not
been named as a party plaintiff in any member case, and
it does not number among the plaintiffs named as class
representatives. See 3d Am. Compl., ECF No. 637.
The parties named in the pleadings of a class action
litigate as representatives of unnamed, absent class
3. The parties also do not discuss this court’s jurisdiction
to entertain this motion. In Pretrial Order 33, this court raised
concerns about the language preserving jurisdiction in the
proposed form of judgment. ECF No. 743. See also ECF No. 745.
The court does not understand Drasc or Navistar to be basing
jurisdiction on the language of the judgment entered January
21, 2020. Drasc bases its motion in part on Federal Rule of Civil
Procedure 60(b)(1), which allows the court to alter a judgment
within one year of its entry for, inter alia, a litigant’s “excusable
neglect.” Regardless of language retaining jurisdiction in the
judgment itself, the court possesses continued jurisdiction to
decide timely Rule 60 motions.

19a
Appendix B
members. “[T]he class device is designed to avoid the
need for class members to become parties.” Crawford v.
Equifax Payment Servs., Inc., 201 F.3d 877, 880–81 (7th
Cir. 2000) (emphasis omitted). Unnamed class members
generally must become parties by moving for leave to
intervene in a class action. See United Airlines, Inc. v.
McDonald, 432 U.S. 385, 394–96 (1977); Crawford, 201
F.3d at 880–81. Intervention is warranted “[o]nly when
the class members suspect that the representative is not
acting in their best interests.” Crawford, 201 F.3d at 880;
see also Larson v. JPMorgan Chase & Co., 530 F.3d 578,
581–82 (7th Cir. 2008); Vollmer v. Publ’rs Clearing House,
248 F.3d 698, 706–07 (7th Cir. 2001); Fed. R. Civ. P. 24. The
proposed intervenor bears the burden of showing that the
requirements for intervention set forth in Rule 24 have
been satisfied. Ligas ex rel. Foster v. Maram, 478 F.3d 771,
773 (7th Cir. 2007) (citing United States v. BDO Seidman,
337 F.3d 802, 808 (7th Cir. 2003)). Although Drasc has not
requested leave to intervene, this court grants Drasc leave
to intervene because Drasc’s right to appeal depends on
whether it has been made a party. See Gautreaux v. Chi.
Hous. Auth., 475 F.3d 845, 849–52 (7th Cir. 2007).
It is fairly obvious that the class representatives may
not adequately protect Drasc’s interests. Both Drasc and
Navistar proceed as though Drasc is properly before the
court. Navistar has sophisticated, experienced counsel,
and its failure to object on intervention grounds modestly
supports granting leave to intervene. And some of Drasc’s
arguments concerning the adequacy of notice to class
members conflict with positions taken by class counsel
throughout the settlement approval process. See Mem.
Supp. 9–10; Larson, 530 F.3d at 581–82. Accordingly,

20a
Appendix B
Drasc is granted leave to intervene as of right under
Rule 24(a).
Analysis
Drasc concedes that the settlement releases its
claims in the Ohio litigation. It argues, however, that its
vigorous pursuit of the Ohio litigation demonstrates its
intent to opt out here; that the notice of the then-proposed
settlement was “deficient with respect to Drasc both in
terms of method of service and content,” resulting in a
violation of Rule 23 and a deprivation of due process; that
Navistar was well aware of the email addresses of Drasc’s
attorneys and should have provided them to the settlement
administrator; and, alternatively, that Drasc’s deadline
to opt out should be extended, and the judgment entered
January 21, 2020, modified, due to Drasc’s “excusable
neglect.” See Mem. Supp. 5–15, ECF No. 760.
Drasc and Navistar cite a number of cases, mostly
decided by district courts, and spend considerable effort
distinguishing them and attempting to derive bright-line
rules from them. The cases the parties cite are helpful, but
the inquiry is at bottom an equitable one. In the context
of class action settlements, the Seventh Circuit has held
“that courts have discretion to permit the filing of late
claims [and] they should permit such claims only when the
equities, on balance, favor claimants.” Burns v. Elrod, 757
F.2d 151, 153 (7th Cir. 1985) (citing Zients v. LaMorte, 459
F.2d 628 (2d Cir. 1972)); see also Sanders v. John Nuveen
& Co., 524 F.2d 1064, 1075 (7th Cir. 1975), cert. granted,
vac’d on other grounds, 425 U.S. 929 (1976).

21a
Appendix B
Sanders provides helpful guidance in weighing the
equities here. In Sanders, a class member wrote a letter
opting out but never sent it to the court, though he sent
the defendant a carbon copy, and some evidence showed
that an employee of the defendant had persuaded the class
member to opt out. 524 F.2d at 1074. The district court
refused to permit the class member to opt out after the
deadline. Id.
The Seventh Circuit affirmed “[w]ith some misgivings.”
Id. at 1075. The court of appeals drew a distinction
applicable here. On the one hand, “Courts have been
flexible in recognizing elections to be excluded from a
class which were communicated to the court, although
not in the proper form.” Id. (citing In re Four Seasons
Sec. Law Litig., 493 F.2d 1288 (10th Cir. 1974)). On the
other hand, the court received no communication from
the class member in Sanders until after the court had
rendered a decision on the proposed settlement. Id. The
“obvious dangers of ‘one-way intervention,’” explained
below, supported the trial court’s decision. Id.
The one-way intervention problem referred to in
Sanders has been well-documented. Under the pre-1966
version of Rule 23, “ A victory [on the merits] by the
plaintiff would be followed by an opportunity for other
members of the class to intervene and claim the spoils;
[but] a loss by the plaintiff would not bind the other
members of the class.” Premier Elec. Const. Co. v. Nat’l
Elec. Contractors Ass’n, Inc., 814 F.2d 358, 362 (7th Cir.
1987); see generally id. at 362–63 (discussing the purpose
of the 1966 amendments and the need for class members to
decide whether to opt out before a decision on the merits).

22a
Appendix B
As in Sanders, the equities weigh against Drasc
here. Drasc made no effort to communicate to this court
its desire to opt out until it filed the instant motion
on February 14, 2020. See Onest Decl. ¶ 23. Drasc’s
efforts to pursue the Ohio litigation do not alter this
fact or assuage the legitimate concerns about one-way
intervention. See Sanders, 535 F.3d at 1075. If a class
member makes no effort to communicate an intent to opt
out to the court administering the class settlement by the
deadline, continuing to litigate claims in another court is
as consistent with planning to wait and see whether the
settlement will be approved as it is with an intent to opt
out.
Furthermore, the opt-out deadline helps to protect
the interests of the class as a whole. When the deadline
is missed, the court tasked with approving the settlement
is deprived of valuable information. See 7AA Charles
Alan Wright & Arthur R. Miller, Federal Practice and
Procedure § 1787 (3d ed. 2020) (“In addition to protecting
absent class members, the right to opt out in Rule 23(c)
(2)(B) also serves to give both the court and the party
opposing the class some idea of the actual number of
persons who will be affected by the judgment in the
action.” (footnote omitted)). Recognizing this, courts have
often stated that “[t]he pendency of an individual action
does not excuse a class member from filing a valid request
for exclusion.” In re Broiler Chicken Antitrust Litig., 2019
WL 6699664, at *2 (N.D. Ill. Dec. 9, 2019) (quoting In re
VMS Sec. Litig., 1992 WL 203832, at *3 (N.D. Ill. Aug.
13, 1992). That general principle applies here.

23a
Appendix B
Drasc strongly implies that Navistar misled it into
thinking that formally opting out was unnecessary.
Drasc points to Navistar’s active participation in the Ohio
litigation during and after the notice and opt-out periods
here. But this court specifically declined to enjoin parallel
litigation when it granted preliminary approval to the
settlement. See PTO29 ¶ 21. Navistar therefore had to
press ahead in the Ohio litigation. And it was reasonable
for Navistar to think that Drasc was weighing its options
before the opt-out deadline. After the deadline, this court
cannot dispute Navistar’s decision to continue pursuing
the Ohio litigation because this court had not yet granted
final approval. Indeed, this court raised substantial
questions about the proposed settlement before and at
the fairness hearing and allowed time to supplement the
record. Accordingly, the court has no basis on this record
to find that Navistar misled Drasc.
Drasc’s contention that Navistar did not email the
notice to Drasc’s lawyers also fails to persuade. 4 Drasc
cites no case requiring notice of a settlement to be sent to
a class member’s lawyer, either as a matter of due process
or under Rule 23. Although the issue has not been briefed
in any great depth, the court sees as much potential for
complicating the notice process as streamlining it in such
a requirement. Arguments like Drasc’s have been rejected
4. Drasc does not argue that any ethical violation occurred,
and the court sees no basis for such a finding. Lawyers may not
ordinarily communicate directly with a person known to be
represented by another lawyer. See Model Rules Prof’l Conduct
4.2. The settlement administrator, not the lawyers, sent courtapproved notices to class members. See PTO29 ¶ 25.

24a
Appendix B
summarily, and this court rejects them as well. Broiler
Chicken, 2019 WL 6699664, at *4.
Drasc also contends that Navistar violated a
provision of the preliminary approval order requiring
the settlement administrator to send “the Email Notice
to all Class Members for whom an email address can be
located through reasonable efforts and the reasonable
cooperation of Defendants.” PTO29 ¶ 25(c). Navistar has
submitted evidence that it searched its internal marketing
database and its’ “Delivery to User” database for class
members’ email addresses. See Decl. of K. Podewell
¶¶ 4–7, 11, ECF No. 802, Ex. A. The search of the
marketing database yielded 5,573 email addresses. Id. ¶
8. The mailing addresses the settlement administrator
used for the Drasc entities appeared in the database, but
no email address was present, meaning that Drasc had
elected not to provide one to Navistar. Id. ¶ 9. The court
finds that Navistar’s efforts to locate email addresses were
reasonable and complied with ¶ 25(c) of the preliminary
approval order. “Rule 23 does not require defendants
to exhaust every conceivable method of identification.”
Burns, 757 F.2d at 153-54. Navistar’s efforts were
reasonable under the circumstances.
Next, Drasc argues that it did not receive the
notice that the settlement administrator sent to it. This
argument fails as a factual matter. There is no dispute
that the settlement administrator mailed the courtapproved notices to addresses associated with the Drasc
entities; the mailings were not returned as undeliverable.
Decl. of J. Keough ¶¶ 8–11, ECF No. 787, Ex. 3. Thus, a

25a
Appendix B
rebuttable presumption arises that Drasc received the
notices. See, e.g, Hagner v. United States, 285 U.S. 427,
430 (1932); Laouini v. CLM Freight Lines, Inc., 586 F.3d
473, 476 (7th Cir. 2009) (“[E]vidence of proper mailing
raises a rebuttable presumption of delivery”). To rebut the
presumption, Gordon, Drasc’s owner and president, avers
that he “does not recall” receiving the notice and that he
and Drasc have no record of receiving it. Gordon Decl.
¶ 7, ECF No. 760, Ex. 1. Gordons’ inability to remember
receiving the notice, as contrasted with a denial of receipt,
does not rebut the presumption of delivery. See Boomer v.
ATT Corp., 309 F.3d 404, 415 n.5 (7th Cir. 2002) (plaintiff
did not “present any conflicting evidence” regarding his
receipt of a properly addressed mailing because he “[did]
not contend that he did not receive the mailing—just that
he does not remember receiving it”); Walton v. Johnson
& Johnson Servs., Inc., 347 F.3d 1272, 1287 n.13 (11th
Cir. 2003) (substantively same). Thus, the notice must be
deemed to have been received.
Drasc’s remaining arguments concern the form of
the court-approved notice. Drasc submits that the notice
should have specifically warned class members that
failing to opt out would result in the dismissal of pending
litigation, citing McCubbrey v. Boise Cascade Home &
Land Corp, 71 F.R.D. 62 (N.D. Cal. 1976). The district
court in McCubbrey parsed the language of a notice to
class members and held that it was defective because its
language “suggest[ed] that inaction will result in barring
future litigation, not automatic termination of present
suits.” Id. at 68 (emphasis omitted). Thus, class members
who had ongoing suits did not receive adequate notice. Id.

26a
Appendix B
The short form notice sent to all class members here
contains no such ambiguity. It states, “If you do not exclude
yourself, and the Court approves the Settlement, you will
be bound by the Court’s orders and judgments and will
release your claims against Defendants, even if you do not
file a claim.” ECF No. 641, Ex. A-2 at 1. The implications
of the word “release” may not be entirely obvious to a
non-lawyer, but the statement that “you will be bound by
the court’s orders and judgments” adequately warns that
an approved settlement will preclude further litigation by
the class member. See In re Imprelis Herbicide Mktg.,
Sales Practices & Prods. Liab. Litig., 2014 WL 6901120,
at *7–8 (E.D. Pa. Dec. 5, 2014) (distinguishing McCubbrey
and finding class notice was not defective).
Regardless, Drasc’s lawyers had actual notice of
the settlement. Procedural due process is intended to
maximize the chances of interested parties receiving
actual notice and an opportunity to be heard. See Mullane
v. Cent. Hanover Bank & Trust Co., 339 U.S. 306, 315–16
(1950) (“The means employed must be such as one desirous
of actually informing the absentee might reasonably adopt
to accomplish it . . . . the ground that it is in itself reasonably
certain to inform those affected . . . .”). But “due process
does not require that every class member receive notice.”
In re AT & T Mobility Wireless Data Servs. Sales Tax
Litig., 789 F. Supp. 2d 935, 962 (N.D. Ill. 2011) (St. Eve,
J.) (collecting cases). When it granted final approval, this
court found that the settlement administrator complied
with the notice plan in the preliminary approval order and
mailed the short form notice to addresses corresponding
to the Drasc entities. See PTO29 ¶¶ 22–25; Keough Decl.

27a
Appendix B
¶ 6, ECF No. 787, Ex. C. The court also found that the
notice complied with the requirements of due process and
Rule 23.
An email from Drasc’s counsel to Navistar’s counsel
shows that lawyers representing Drasc were actually
aware of the settlement as early as the day after the initial
hearing on the motion for preliminary approval (May 30,
2019). See ECF No. 787, Ex. 6. Indeed, the dollar value
of the settlement is featured in Drasc’s demand letter to
Navistar dated July 26, 2019. See id., Ex. 5. This shows
that Drasc’s lawyers had actual notice of the pending
settlement and the fact that it involved the same model
year trucks at issue in the Ohio litigation.
Drasc acknowledges in its reply that it was aware of
the $135 million settlement from an article in the press.
ECF No. 792 at 5. But, argues Drasc, the article did not
warn Drasc that it had to opt out, and its lawyer was never
emailed a notice of the settlement or told that Drasc had
to opt out formally. To accept these arguments, the court
would have to believe that Drasc’s counsel–who were
involved in sophisticated litigation with Navistar entailing
the production of over a million pages of discovery–did
not realize that this court would set an opt-out deadline
or that the Ohio litigation likely fell within the scope of
the nationwide settlement. Any lawyer with access to the
Federal Rules of Civil Procedure could easily determine
that Rule 23 requires the setting of an opt-out deadline,
and Drasc’s counsel could have easily determined the
scope of the settlement class by consulting the docket of
this MDL. See Adelson v. Ocwen Fin. Corp., 2014 WL

28a
Appendix B
9954175, at *2–3 (N.D. Ill. Oct. 14, 2014) (“Even if counsel
received no electronic correspondence or notices, review
of the docket in the MDL action would have immediately
revealed the settlement agreement and proceedings
related thereto.”). Moreover, the reference to the $135
million settlement in Drasc’s July 26, 2019, demand letter
tends to show awareness on the part of Drasc’s counsel
that the settlement applied to the types of claims, and
the trucks, at issue in the Ohio litigation. See ECF No.
787, Ex. 5.
The court, therefore, need not indulge the fiction
that Drasc’s counsel was in the dark about the need to
opt out. Realism dictates that Drasc’s counsel knew or
should have known of the perils of failing to opt out, even
if their client did not. See Larson, supra, 530 F.3d at 581
(explaining that party could have attempted to intervene
in class action earlier because it was a large pension
fund that “had securities lawyers on retainer, and the
fund’s lawyers would have known about and monitored
the progress of the class action”). Thus, Drasc had actual
notice and an opportunity to opt out, which is the goal of
due process. “[D]ue process requires at a minimum that an
absent plaintiff be provided with an opportunity to remove
himself from the class by executing and returning an ‘opt
out’ or ‘request for exclusion’ form to the court.” Phillips
Petroleum Co. v. Shutts, 472 U.S. 797, 812 (1985). And
since Drasc’s lawyers knew or should have known about
the opportunity to opt out, a finding of excusable neglect
is unwarranted. See, e.g., Harrington v. City of Chi., 433
F.3d 542, 548 (7th Cir. 2006) (“[A]ttorney inattentiveness
to litigation is not excusable, no matter what the resulting

29a
Appendix B
consequences the attorney’s somnolent behavior may
have on a litigant.”) (quoting Easley v. Kirmsee, 382 F.3d
693, 698 (7th Cir.2004)); McCormick v. City of Chi., 230
F.3d 319, 327 (7th Cir. 2000) (“[N]either ignorance nor
carelessness on the part of the litigant or his attorney
provide grounds for relief [based on excusable neglect]
under Rule 60(b)(1).”) (quoting Kagan v. Caterpillar
Tractor Co.,795 F.2d 601, 607 (7th Cir. 1986)); Adelson,
2014 WL 9954175, at *2–3 (denying Rule 60(b)(1) motion
for similar reasons).
Conclusion
For the reasons stated, Drasc’s motion to confirm that
it opted out of the settlement or to extend its deadline to
opt out is denied.
Dated: April 16, 2020
/s/ 				
Joan B. Gottschall
United States District Judge

30a
AppendixOF
C REHEARING OF
APPENDIX C — DENIAL
THE UNITED STATES COURT OF APPEALS FOR
THE SEVENTH CIRCUIT, DATED APRIL 8, 2021
UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT
Chicago, Illinois 60604
No. 20-1821
IN THE MATTER OF:
NAVISTAR MAXXFORCE ENGINES
MARKETING, SALES PRACTICES, AND
PRODUCTS LIABILITY LITIGATION
APPEAL OF:
DRASC, INC., AND S&C TRUCKS
OF WINKLEPLECK, LTD.
Appeal from the United States District Court for the
Northern District of Illinois, Eastern Division.
No. 1:14-cv-10318
Joan B. Gottschall, Judge.
April 8, 2021
Before
Diane S. Sykes, Chief Judge
Frank H. Easterbrook, Circuit Judge
Diane P. Wood, Circuit Judge

31a
Appendix C
Order
Appellants filed a petition for rehearing and rehearing
en banc on March 24, 2021. No judge in regular active
service has requested a vote on the petition for rehearing
en banc, and all of the judges on the panel have voted to
deny rehearing. The petition for rehearing is therefore
DENIED.

